No. 20-6165
In the

Supreme Court of the United States
JAMES EDWARD SANDFORD, III,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of A ppeals For the Second Circuit

REPLY BRIEF FOR PETITIONER

Robert W. Wood
Counsel of Record
2080 West Ridge Road
Rochester, New York 14626
(585) 227-9830
Robertwoodatty@yahoo.com
Attorney For Petitioner

300637

A
(800) 274-3321 • (800) 359-6859

No.

20-6165

In the

Supreme Court of the United States

JAMES EDWARD SANDFORD, III,
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent.

REPLY
THIS MATTER SHOULD NOT
BE HELD PENDING THE
GOVERNMENT’S PETITION
IN GARY

The Government has responded to the Petition for Certiorari herein
that this case should be held pending resolution of the Government’s petition
for Certiorari in United States v. Gary, No. 20-444 (October 2020). Gary is
factually different from this matter in that the defendant in that matter
entered a plea. Here, defendant was convicted after trial and had stipulated
before the jury that he had been convicted of a felony at the time of his
1

possession of a weapon but had not stipulated to knowledge, as required by
Rehaif, that he was a felon at the time of his possession. The Second Circuit
went beyond the trial record to find evidence in the PSR that Mr. Sandford
must have had knowledge of his previous felony convictions and thus did
not satisfy the fourth prong of the plain error analysis.
The Court in Gary found a structural error in the plea process. The
Fourth Circuit denied en banc review in Gary, which exposes a circuit split
amongst the circuits in how the Courts should apply plain error review in the
context of reviewing Rehaif knowledge claims which come before this
Court. It is respectfully submitted that the better approach would be to grant
certiorari to a case where the issue has arisen in a trial setting rather than in a
plea setting because a trial setting will necessarily apply all issues
concerning plain error, including appellate review of whether an appellate
court can review matters outside the record and never presented to a jury.
These issues are never encountered in a plea setting.
Applying principals of due process under the Fifth Amendment,
relying on evidence outside the trial record is inconsistent with plain error
review in prior circuit court of appeals and Supreme Court decisions. This
Court held in United States v. Young, 470 U.S. 1 (1985) that appellate courts
should “relive the whole trial imaginatively and not to extract from episodes
in isolation abstract questions of evidence and procedure” id. (Quoting

2

Johnson v. United States, 318 U.S. 189, 202 (1943) (Frankfurter, J.,
concurring)).
In United States v. Paul, 37 F. 3d 496, 501 (9th Cir. 1944), the Ninth
Circuit found that the fourth prong of the plain error analysis had been
satisfied where the Court did not instruct on one of the elements concerning
defendant’s mental state at the time of the commission of the crime.
Here there was no evidence whatsoever as to Mr. Sandford’s
knowledge that he was a convicted felon. The indictment did not allege that
he was, so he was not given notice that such would be proved at trial and
such was not proved. This Court has applied an “overwhelming” standard
when analyzing under the third and fourth prongs for failure to instruct on an
element of the offense. In United States v. Cotton, 535 U.S. 625, 632-634
(2002) this Court declined to reverse for failure to instruct on an element
when the evidence was “overwhelming”. The same result occurred in
Johnson v. United States, 520 U.S. 461, 470 (1970). Obviously the trial
evidence here was not “overwhelming”, but non-existent. Only when the
Court looked beyond the trial record did it find evidence not before the jury
to affirm the conviction.
The Second Circuit has also applied the same “overwhelming”
standard in cases following Apprendi v. New Jersey, 530 U.S. 466 (2000) in
cases involving drug quantity. In United States v. Doe, 297 F. 3d 776, 91-93
(2nd Cir. 2002), the Court held that if the drug quantity was not found by a
3

jury or admitted by allocation, the evidence of quantity was not
“overwhelming” and the error affected substantial rights and reversal was
required.
The Court should also immediately grant certiorari here because of the
effect of the decision in United States v. Medley, 972 F. 3d 493 (4th Cir.
2020) which is currently subject to en banc review in the Fourth Circuit.
While it is possible that the decision may change upon such review, it
nevertheless arises here as well where the Indictment in this matter did not
allege knowledge by defendant of his felon status. (CA-42). This issue, one
way or another, will come before the Court and can be dealt with in this
case.
CONCLUSION
Wherefore, it is respectfully requested that the Court grant the petition
herein.
Respectfully Submitted:

Robert W. Wood
Counsel of Record
2080 West Ridge Road
Rochester, New York 14626
(585) 227-9830
Robertwoodatty@yahoo.com

4

